OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/MOZAMBIQUE’S
TUBERCULOSIS ACTIVITIES

AUDIT REPORT NO. 4-656-12-012-P
AUGUST 7, 2012




PRETORIA, SOUTH AFRICA
Office of Inspector General


August 7, 2012

MEMORANDUM

TO:      	         USAID/Mozambique Acting Mission Director, Polly Dunford

FROM: 	            Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:	          Audit of USAID/Mozambique’s Tuberculosis Activities
                   (Report No. 4-656-12-012-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The report includes four recommendations to strengthen USAID/Mozambique’s implementation
of its tuberculosis activities. With the information you provided in your response to the draft
report, we determined that management decisions have been reached on all four
recommendations, and final action has been taken on Recommendations 1 and 2. Please
provide the Office of Audit Performance and Compliance Division with the necessary
documentation to achieve final action on Recommendations 3 and 4. Recommendations 1 and
2 are closed upon report issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Goal Not Met for Testing in Areas With Highest Prevalence ................................................. 4 


     Inflated Target Clouded Performance Assessment ................................................................ 6 


     Work Plan Delays Slowed Start of One Program ................................................................... 7 


     Activities to Improve Lab Capabilities Fell Short ..................................................................... 7 


     Program Did Not Compile Data on Women’s Access to Diagnosis and Treatment ................ 9 


     Washington Officials Did Not Monitor Program Properly ....................................................... 9 


Evaluation of Management Comments................................................................................... 11 


Appendix I—Scope and Methodology .................................................................................... 12 


Appendix II—Management Comments ................................................................................... 15 




Abbreviations

The following abbreviations appear in this report:

ADS                             Automated Directives System
AOR                             agreement officer’s representative
ART                             antiretroviral therapy
CB DOTS                         community-based directly observed treatment short course
CHASS/Niassa                    Clinical HIV/AIDS Services Strengthening Project in Niassa
CHASS/SMT                       Clinical HIV/AIDS Services Strengthening Project in Sofala, Manica, and Tete
KNCV                            Royal Netherlands Chemical Society
PEPFAR                          President’s Emergency Plan for AIDS Relief
TB                              tuberculosis
TB CAP                          Tuberculosis Control Assistance Program
TB CARE                         Tuberculosis CARE
WHO                             World Health Organization
SUMMARY OF RESULTS 

Tuberculosis (TB) is a major worldwide public health problem. The World Health Organization
(WHO), in Global Tuberculosis Control 2011, classifies Mozambique as one of 22 countries with
a high TB burden—estimated at 491 cases per 100,000 people in 2010. The TB epidemic is
driven by Mozambique’s generalized HIV epidemic: TB bacteria may reside in the bodies of
infected people without causing symptoms, but people with weakened immune systems, such
as those with HIV, cannot fight the growth of the bacteria and develop active cases of TB.1 For
that reason, almost two-thirds of TB patients are also HIV-positive. Mozambique’s low level of
general development and inadequate health systems already overburdened by HIV exacerbate
the situation.

USAID has several initiatives to help the people of Mozambique combat TB. The Tuberculosis
CARE Program (TB CARE) is a worldwide initiative implemented through a cooperative
agreement with the Royal Netherlands Chemical Society (KNCV) Tuberculosis Foundation, an
international leader in fighting TB. In Mozambique, TB CARE is primarily implemented by
FHI 3602 under an agreement with KNCV Tuberculosis Foundation. The program’s main
activities in Mozambique include promoting universal access to TB treatment by expanding
community-based directly observed treatment short course (CB DOTS) coverage and
increasing laboratory proficiency in TB diagnosis.

The Clinical HIV/AIDS Services Strengthening Project in Sofala, Manica, and Tete
(CHASS/SMT) and the Clinical HIV/AIDS Services Strengthening Project in Niassa
(CHASS/Niassa) are integrated HIV programs that receive funding from the President’s
Emergency Plan for AIDS Relief (PEPFAR). They address the challenges posed by the
interrelationship between the TB and HIV epidemics. Both programs provide assistance in the
prevention of mother-to-child transmission of HIV, antiretroviral therapy (ART), HIV counseling
and testing, and health systems strengthening. In addition, they conduct TB/HIV activities—
testing TB patients for HIV, screening HIV patients for TB, and referring TB and HIV patients for
ART. Because of the programs’ integrated nature, expenditures for activities targeting
tuberculosis were not available. Details of these programs appear in Table 1.

         Table 1. USAID Tuberculosis Programs in Mozambique (amounts unaudited)

                                                                               Obligations and
                                                          Amount              Expenditures as of
      Program           Dates        Implementer
                                                         ($ million)          December 31, 2011
                                                                                  ($ million)
                                 KNCV                                                 5.5
                      9/29/2010-                          225.0
TB CARE                          Tuberculosis                                         2.4
                      9/28/2015                          Worldwide
                                 Foundation                                      Mozambique
                                 Abt
                     11/30/2010-                                                     21.4
CHASS/SMT                        Associates                110.9
                     10/31/2015                                                       8.4
                                 Inc.
                      8/1/2010-                                                       8.4
CHASS/Niassa                     FHI 360                     32.3
                      7/31/2015                                                       7.7

1
    Centers for Disease Control and Prevention, HIV and TB Factsheet, June 2011.
2
    Family Health International changed its name to FHI 360 in July 2011.

                                                                                                   1
The Regional Inspector General/Pretoria conducted this audit to determine whether
USAID/Mozambique’s TB activities were achieving their main goals of expanding CB DOTS,
strengthening the country’s TB laboratory capacity, and increasing TB/HIV collaboration. The
audit found that although a number of first-year targets were not met because of delays in
formulating the initial work plan, activities were being implemented as designed and in
accordance with established technical guidance. Implementing partner staff, government
officials, and community volunteers all said that TB CARE had expanded treatment services,
enhanced laboratory capacity, and detected more TB cases by increasing the number of trained
volunteers. One TB patient lauded the program and especially the volunteers working with him
from the moment he was diagnosed throughout his treatment. The two CHASS programs were
providing HIV testing, TB screening, and ART treatment to people with both diseases. In
addition, audit tests of data compiled by government health workers were satisfactory.

Despite these accomplishments, the audit found the following areas for improvement:

	 Although overall HIV testing of TB patients nearly reached its target, testing was significantly
   lower in provinces with the highest HIV prevalence, resulting in missed opportunities for HIV
   prevention and treatment (page 4).

	 An inflated target for the percentage of TB patients initiating ART was unrealistic, hindering
   performance assessment (page 6).

	 Delays in the approval of the TB CARE work plan slowed the program’s start and prevented
   the program from achieving first-year targets and planned activities (page 7).

	 Activities to improve lab capabilities fell short (page 7). Infrastructure that did not meet
   standards prevented one lab from doing testing, and a lack of training and maintenance
   meant microscopes were not used efficiently at some health facilities.

	 The TB CARE program did not collect data on women’s access to TB services (page 9).
   Consequently, it cannot address gender-based disparities in diagnosis and treatment.

	 Washington officials did not monitor a TB program properly (page 9). The Global Health
   Bureau officials did not formally assign an activity manager in Mozambique for the program,
   funded under the USAID/Washington-based Child Survival and Health Grants Program,
   resulting in inadequate oversight.

The report recommends that USAID/Mozambique:

1. 	Implement a strategy to raise rates of HIV testing among urban tuberculosis patients in
    Sofala and Manica Provinces (page 6).

2. 	 Propose and document realistic targets based on World Health Organization data for the
     percentage of HIV-positive tuberculosis patients initiating antiretroviral therapy during the
     next interagency planning process in Mozambique (page 7).

3. 	In collaboration with FHI 360 and the Government of the Republic of Mozambique,
    implement a plan to optimize use of tuberculosis microscopy (investigation with the
    microscope), including training technicians, placing them in labs, and outlining procedures to
    track, repair, and replace defective microscopes (page 8).


                                                                                                 2
4. 	Work with the Bureau of Global Health to implement procedures for monitoring Child
    Survival and Health Grants Program activities in Mozambique (page 10).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of them is on
page 11.




                                                                                        3
AUDIT FINDINGS 

Goal Not Met for Testing in Areas
With Highest Prevalence
PEPFAR’s global strategy for TB/HIV activities supports the WHO Policy on Collaborative
TB/HIV Activities, a central part of which is to decrease the burden of HIV infection among TB
patients. Consequently, one element in PEPFAR’s strategy is to provide HIV testing to patients
in TB clinical settings. In Mozambique, USAID’s goal was to ensure that 90 percent of
registered TB patients were tested for HIV.

USAID narrowly missed this goal in fiscal year 2011, with 83 percent of new TB patients tested
for HIV. However, the testing was not uniform in the four provinces USAID operated in, and
most significantly, was lowest in the areas with the highest HIV prevalence. The figure below
shows these results for Niassa, Tete, Manica, and Sofala Provinces.

                      FY 2011 HIV Testing of TB Patients, by Province




In explaining the lower levels of HIV testing among TB patients in higher HIV prevalence areas,
TB clinical staff, implementer personnel, and USAID officials all noted that urban patients were
less likely than rural patients to seek counseling and accept an HIV test. Table 2, which shows
the breakdown in HIV testing among TB patients in Sofala, Manica, and Tete Provinces,
confirms this observation.




                                                                                              4
                Table 2. HIV Testing Among Urban and Rural TB Patients in 

                        Sofala, Manica, and Tete Provinces (audited) 


                                                                    Share of         Share of
                 Number      Number      Percent
                                                                   Provincial/      Provincial/
  Locale          of TB      Tested      Tested     Population
                                                                     Total           Total TB
                 Patients    for HIV     for HIV
                                                                   Population        Patients
  Sofala
   Urban          4,049        2,725       67         546,000           33               58
   Rural          2,891        2,700       93       1,130,000           67               42
   Total          6,940        5,425       78       1,676,000          100              100
  Manica
   Urban            694          457       66         239,000           18               29
   Rural          1,704        1,462       86       1,121,000           82               71
   Total          2,398        1,919       80       1,360,000          100              100
  Tete
   Urban          1,080        1,039       96         156,000           10               42
   Rural          1,462        1,400       96       1,396,000           90               58
   Total          2,542        2,439       96       1,552,000          100              100
  All Three
  Provinces
   Urban          5,823        4,221       72         941,000           21               49
   Rural          6,057        5,562       92       3,647,000           79               51
   Total         11,880        9,783       82       4,588,000          100              100

Table 2 shows that Sofala, the most urbanized province with the highest proportion of urban TB
cases (as well as HIV prevalence), also had the greatest disparity in HIV testing between urban
and rural TB patients. Manica displayed a similar disparity, although it was not as urbanized as
Sofala. Both provinces recorded HIV test results for only 2 out of every 3 urban TB patients,
well below the desired level, in addition to having higher HIV prevalence than Niassa (shown in
the figure on page 4) and Tete. Tete, meanwhile, showed negligible variance in testing rates.
According to an implementing partner official, this was expected since the city of Tete was less
urbanized than urban centers in Sofala and Manica.

Clinic staff and other officials gave several explanations for lower rates of testing for patients
registered at urban clinics. First, urban patients typically had more experience with a friend or
relative being HIV-positive or dying of AIDS, and thus were more fearful of learning their status.
Others felt that urban patients were more stubborn than their rural counterparts, while one
official noted that higher patient volumes in urban health facilities could lead to lower-quality HIV
counseling, and thus less HIV testing. Finally, others said the greater availability of testing
outlets in urban areas could lead those patients to undergo testing at places other than the TB
ward, and thus not have an HIV test result recorded in a clinic registry. In their response to the
draft report, mission officials added that reasons for the low testing rates in urban settings
“…include the higher demand for services in urban settings and insufficient human resources to
meet the need and provide the necessary counseling and testing.” This in turn may reduce the
likelihood of seeking HIV testing.

Officials from the U.S. State Department’s Office of the Global AIDS Coordinator, which
oversees PEPFAR, have noted that “TB clinical settings provide an opportunity to identify a


                                                                                                   5
large number of HIV-infected persons who need HIV care and treatment” and that referring
people who have both diseases for such assistance is an “essential component” of PEPFAR.
Failure to maximize HIV testing of TB patients, therefore, reduces the opportunities for this
critical TB/HIV collaboration. For example, if HIV testing in Sofala and Manica had been
conducted at the target level of 90 percent, an estimated 668 additional HIV-positive people
would have been identified. They could then have been referred to treatment and counseled on
measures to prevent infecting others.       Consequently, this audit makes the following
recommendation.

   Recommendation 1. We recommend that USAID/Mozambique implement a strategy to
   raise rates of HIV testing among urban tuberculosis patients in Sofala and Manica
   Provinces.

Inflated Target Clouded
Performance Assessment
In addition to testing TB patients for HIV, initiating ART for eligible TB patients is a key TB/HIV
activity. Setting performance targets for it helps establish clear expectations regarding what is
to be done and provides a benchmark for assessing performance and taking any necessary
corrective action. Automated Directives System (ADS) 203.3.4.5 states that missions should
set performance targets that are “ambitious, but can realistically be achieved.” Additional
Agency guidance, Performance Monitoring and Evaluation TIPS Number 8, “Baselines and
Targets,” amplifies this ADS section by noting that targets should also be “realistic” and
“evidence-based.”

Despite these requirements, the annual target for the percentage of HIV-positive TB patients
initiating ART was neither achievable nor evidence-based. Specifically, the fiscal year 2011
target was 80 percent, although WHO data indicated that the percentage of such patients on
ART in Mozambique ranged from 22 to 30 percent between 2008 and 2010. Even neighboring
South Africa, with a vastly superior health system, never exceeded 54 percent during that time.
Moreover, the fiscal year 2012 target remained at 80 percent, despite the actual fiscal year 2011
result of 29 percent.

The unrealistic target emanated from the PEPFAR interagency planning process in
Mozambique. All PEPFAR-funded U.S. government agencies, including USAID, agree on
annual targets as part of preparing the annual Country Operatational Plan, which then goes to
the Office of the Global AIDS Coordinator for approval. According to USAID/Mozambique,
during the interagency planning process, the interagency technical team had numerous debates
about how to balance aspirational targets with limited in-country capacity and settled on more
ambitious targets.

While good targets can motivate employees to find creative solutions to bolster performance,
poor targets can dampen morale and lead to false reporting. Moreover, poor targets render
performance assessments meaningless, leading to flawed decisions on funding and
programming.     To address these potential problems, this audit makes the following
recommendation.




                                                                                                 6
    Recommendation 2. We recommend that USAID/Mozambique propose and document
    realistic targets based on World Health Organization data for the percentage of HIV-
    positive tuberculosis patients initiating antiretroviral therapy during the next interagency
    planning process in Mozambique.

Work Plan Delays Slowed
Start of One Program
The TB CARE cooperative agreement was effective September 29, 2010. According to the
agreement, the recipient had 60 days to submit an annual work plan and budget to USAID for
approval. Despite this requirement, FHI 360 did not submit the work plan for TB CARE activities
in Mozambique until May 21, 2011; USAID approved it on June 27, 2011.

The work plan was late for two reasons. First, the predecessor program, Tuberculosis Control
Assistance Program (TB CAP), was extended through March 2011. This delayed TB CARE
work plan development because the same staff members were largely involved in TB CAP and
TB CARE and thus could not devote full efforts to planning Year 1 activities under TB CARE.
Second, the Mozambican Government adopted a highly collaborative approach with U.S.
Government agencies and partners that included development of an overall strategic plan. This
approach required more consultations to achieve consensus, and thus more time.

Although stakeholder consensus is critical for the long-term success of anti-TB efforts in
Mozambique, the delay in formulating the initial work plan led to a slow start for TB CARE. Key
targets, such as expanding CB DOTS from 25 to 36 districts and implementing 20 percent of
planned activities to support a Mozambique strategy to address drug-resistant TB, were not met
by September 30, 2011. As of December 31, 2011, TB CARE estimated that only 80 percent of
activities under the first-year work plan had been implemented.

To compensate for this slow start, USAID anticipates that Year 2 activities will be implemented
in 9 months. USAID expects TB CARE to be back on schedule with the Year 3 work plan,
starting around October 1, 2012. Consequently, the audit makes no recommendation on this
matter.

Activities to Improve Lab
Capabilities Fell Short

Laboratories and associated equipment, like microscopes, are critical components of an
effective national TB response. Consequently, TB CARE includes activities to improve
laboratory capabilities in Mozambique. Despite this emphasis, the audit found some problems
with laboratory infrastructure, personnel, and equipment.
Beira Lab Did Not Meet Quality Standards. According to the TB CARE work plan, one of the
program’s goals is to expand the capacity for TB testing3 to all three regional laboratories in

3
  TB testing in Mozambique includes sputum smear microscopy and culturing. The former test involves
placing a thin layer—a smear—of sputum (the saliva and other matter coughed up by a patient thought to
have TB) on a glass slide, applying stain to enhance contrast, and examining the slide under a
microscope for traces of TB bacteria. The latter test involves growing the bacteria. According to
www.TBFacts.org, culturing requires special equipment and lab facilities. Lab technicians may also
conduct drug susceptibility testing to determine which drugs a particular strain of bacteria is susceptible to
and whether the patient has drug-resistant TB.

                                                                                                            7
Mozambique. Because conducting testing requires labs to meet national and international
quality standards, such as adequate sterilization, TB CARE provides technical assistance in
compliance with the standards, as well as assistance, where possible, with renovating
infrastructure.

Nevertheless, one of the three regional laboratories—the Beira Regional Reference
Laboratory—did not meet all relevant quality standards. A room used for the preparation of
slides was not sterile because its windows were flexible sliding panes instead of sealed panes.

FHI 360 was not aware of this deficiency until the audit; neither the Ministry of Health nor the
laboratory notified the organization. FHI 360 officials said that although TB CARE was required
to provide some equipment, training, and other technical assistance, the Ministry of Health was
responsible for health facility infrastructure. Nonetheless, FHI 360 officials acknowledged that
the program budget for laboratory renovations and equipment purchases was insufficient.
USAID expected other donors to fund equipment maintenance costs at the Beira Regional
Reference Laboratory and at the reference laboratory in Maputo; however, this funding did not
materialize, and maintenance costs had to come out of the budget for renovations and
purchases.

Without a sterilized room at the Beira Regional Reference Laboratory, the quality of slides and
reagents used in examining samples under microscopes is questionable. In addition, delays in
developing the ability to culture TB and use new technologies for diagnosing standard and
multidrug-resistant TB hinder Mozambique’s national response to the disease. According to an
FHI 360 official, in response to this audit FHI 360 purchased and installed sealed pane windows
in the Beira Regional Reference Laboratory for approximately $150, eliminating the problem.

Personnel Lacked Training in Using Microscopes. Microscopes and the ability to use them
are essential for TB detection and eventual verification that a patient has been cured. However,
the use of microscopes was not optimal at some of the health facilities visited. For example, the
Tunga health facility in Buzi District had a microscope but no trained lab technician to use it.
The presence of a technician there would have saved the time and expense required to
transport sputum specimens to the central laboratory in the town of Buzi.

Government Did Not Maintain Equipment. At other locations visited, including the Beira
Regional Reference Laboratory, auditors noted unrepaired, defective microscopes.

According to the government, FHI 360, and mission officials interviewed, labs did not make
better use of microscopes for two reasons. First, there was poor planning and collaboration
between FHI 360 and the government regarding the training and placement of laboratory
technicians and the availability and condition of essential laboratory equipment. Second,
government funding and organizational structure hindered equipment maintenance. For
example, an official at the National Reference Laboratory said that while the Ministry of Health is
responsible for maintenance, another department manages all government equipment.

Besides creating program inefficiency, broken or unused microscopes can reduce TB detection
and the number of infected persons receiving treatment. Consequently, this audit makes the
following recommendation.

   Recommendation 3. We recommend that USAID/Mozambique, in collaboration with
   FHI 360 and the Government of the Republic of Mozambique, implement a plan to
   optimize use of tuberculosis microscopy, including training technicians in tuberculosis

                                                                                                 8
   microscopy, placing technicians in labs, and outlining procedures to track, repair, and
   replace defective microscopes.

Program Did Not Compile
Data on Women's Access
to Diagnosis and Treatment
According to USAID’s Gender Equality and Female Empowerment Policy, promoting gender
equality is one of the Agency’s seven basic principles, and USAID programs should deliberately
and explicitly seek to eliminate gaps between the status of males and females. The TB CARE
cooperative agreement incorporates this principle by stating that access to quality TB treatment
“needs to be expanded to ensure women are appropriately reached and gender considerations
are properly integrated into all TB programs.” As part of this effort, obtaining data on gender-
based barriers to accessing treatment is critical to monitoring and evaluating program
performance effectively.

Despite this emphasis in both the cooperative agreement and Agency policy, the TB CARE
program in Mozambique did not adequately integrate gender considerations, according to the
mission’s gender specialist. The specialist attributed this deficiency to the lack of gender­
disaggregated data (e.g., number of women tested for TB at a health facility in the Sofala
District), which is crucial for formulating an effective gender strategy for the mission’s TB
program. Although health facilities collect disaggregated data, the Ministry of Health does not
compile or report it because the Ministry’s aim has been to combat the disease generally and
not focus on women specifically. As a result, women may not be receiving adequate TB
diagnostic and treatment services.

As part of TB CARE, FHI 360 and its partners have been working with Mozambique’s National
Tuberculosis Control Program to revise TB data collection tools and techniques. According to
an FHI 360 official, these revised tools will record TB data disaggregated by gender. The
program will then help government officials analyze gender disparities in accessing early TB
diagnosis and treatment and address any disparities identified. Because the program is taking
steps to address this issue, the audit is not making any recommendations in this area.

Washington Officials Did Not
Monitor Program Properly

According to the Government Accountability Office’s Standards for Internal Control in the
Federal Government, internal control helps provide reasonable assurance that operations are
conducted effectively, efficiently, and in compliance with legal and regulatory requirements. The
standards then state that monitoring—a key component of internal control—should be
“performed continually,” be “ingrained in the agency’s operations,” and include "regular
management and supervisory activities.” Office of Management and Budget Circular A-123, a
mandatory reference for USAID’s ADS Chapter 596, “Management’s Responsibility for Internal
Control,” also underscores the importance of monitoring.

Despite these multiple criteria, USAID officials did not adequately monitor one TB program in
Mozambique. The program, which began in September 2009, is a 5-year, $1.5 million
cooperative agreement with World Relief to provide CB DOTS services to six districts in northern
Gaza Province. The award was made under the Child Survival and Health Grants Program, and

                                                                                               9
the award’s agreement officer and agreement officer’s representative (AOR) are located in
Washington, D.C.

According to the AOR, monitoring consisted of approving detailed implementation plans,
examining annual reports, and reviewing a midterm and final evaluation conducted by external
evaluators. However, these activities at the beginning, middle, and end of a 5-year program are
not sufficient to meet the requirements for regular monitoring under the Standards for Internal
Control in the Federal Government and Circular A-123. Most significantly, although the AOR
visited Mozambique before the start of the program, neither she nor any other USAID official
had physically monitored the program’s activities.

Problems with monitoring occurred because USAID officials in Washington did not designate an
activity manager in Mozambique. In response to audit inquiries, the AOR said that mission
contacts “serve as the activity managers . . . for any CSHGP [Child Survival and Health Grants
Program] supported in-country projects.” Despite this assertion, the USAID/Mozambique
contact identified by the AOR said he was never formally designated as the activity manager,
and he construed his duties as primarily providing input during the preaward selection process.
Furthermore, the official said that he expected to receive more information on the final award
and its oversight and management after the AOR’s visit to Mozambique, but “this never
happened.” Finally, he said the AOR had never asked him to monitor any of World Relief’s
activities or provide trip reports or other feedback.

Without regular, in-person monitoring of program activities by USAID officials, the Agency,
Congress, and taxpayers lack reasonable assurance that programs are implemented effectively,
efficiently, and in compliance with applicable laws and regulations. For this particular program,
a site visit by the audit team revealed no deleterious effects because of a lack of monitoring;
however, this may not always be the case, either in Mozambique or in other countries. To
comply with U.S. Government policy on internal control, this audit makes the following
recommendation.

   Recommendation 4. We recommend that USAID/Mozambique work with the Bureau of
   Global Health to implement procedures for monitoring Child Survival and Health Grants
   Program activities in Mozambique.




                                                                                              10
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Mozambique agreed with all four recommendations.
Management decisions have been reached on all of them, and final action has been taken on
two of them. Our detailed evaluation of management comments follows.

Recommendation 1. As documented in its response to the draft report (pages 17 to 19),
USAID/Mozambique has already started to implement a strategy to raise rates of HIV testing
among urban tuberculosis patients in Sofala and Manica Provinces. As a result, a management
decision has been reached, and final action has been taken on Recommendation 1.

Recommendation 2. USAID/Mozambique not only agreed, but the interagency team has
already gone back to the Office of the Global AIDS Coordinator and revised fiscal year 2012
targets from 80 percent to 70 percent. As a result, a management decision has been reached,
and final action has been taken on Recommendation 2.

Recommendation 3. USAID/Mozambique agreed. Its plan, which is described in detail on
pages 19 to 20, will be almost completely accomplished by December 2012; the one exception
is personalized technical assistance training at laboratories, which it plans to start in January
2013. Therefore, a management decision has been made on this recommendation.

Recommendation 4. The mission has already started working with the Bureau of Global
Health to design procedures for monitoring Child Survival and Health Grants Program activities
in Mozambique, which it expects to implement by August 31, 2012. Therefore, a management
decision has been made on Recommendation 4.




                                                                                              11
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The objective of the audit was to determine whether USAID/Mozambique’s TB activities were
achieving their main goals of expanding CB DOTS, strengthening the country’s TB laboratory
capacity, and increasing TB/HIV collaboration. Audit fieldwork was conducted from February 6
to February 24, 2012.

In planning and performing the audit, we assessed USAID/Mozambique’s internal controls.
Specifically, we reviewed and inquired about the mission’s reporting for the Federal Managers’
Financial Integrity Act of 1982,4 which provided detail on the mission’s administrative
management, financial management, programming, and general control environments. We also
obtained an understanding and evaluated supporting documentation of the mission’s
organizational structure, assistance processes, monitoring and evaluation procedures, and
reporting processes. Furthermore, we:

	 Determined whether mission management established an environment conducive to good
   internal control.

	 Confirmed that AOR designation letters existed and were in accordance with ADS 303.3.14.

	 Reviewed the process that TB CARE subawardees in Mozambique follow in submitting
   financial reporting to FHI 360 and associated controls implemented by FHI 360.

	 Gained an understanding of implementing partners’ monitoring of subrecipients and
   implementation sites.

	 Checked implementing partners’ compliance with the Excluded Parties List System.

We focused our audit on two of USAID/Mozambique’s primary TB activities—CB DOTS and
TB/HIV coinfection initiatives. CB DOTS is implemented through TB CARE, for which funding in
fiscal year 2011 was $4.3 million. TB/HIV coinfection activities received PEPFAR funding of
$911,673 for CHASS/Niassa and CHASS/SMT combined as of fiscal year 2011; however,
because of the integrated nature of CHASS/Niassa and CHASS/SMT, expenditures for activities
targeting tuberculosis were not available. The amounts obligated and expended under these
programs as of December 31, 2011, are provided in Table 1 on page 1. We did not include in
the scope of the audit (except for one site visit) the 5-year, $1.5 million cooperative agreement
with World Relief under the Child Survival and Health Grants Program since we were not


4
    Public Law 97-255, codified in 31 U.S.C. 3512.

                                                                                               12
                                                                                        Appendix I


informed of the existence of this program until commencement of site visits. As of December
31, 2011, USAID had obligated approximately $900,000 for this agreement.

We conducted fieldwork in Maputo, where we interviewed key personnel from
USAID/Mozambique; TB CARE, CHASS/Niassa, and CHASS/SMT; and the Mozambique
Ministry of Health (including those from the National Tuberculosis Control Program, the National
Reference Laboratory, and the Zimpeto Central Medical Store). We visited Sofala and Gaza
Provinces, where we interviewed provincial and district health officials with responsibilities for
the TB program. We also interviewed FHI 360 personnel in their Beira regional office,
subgrantees of FHI 360 implementing CB DOTS activities in six districts, CB DOTS volunteers,
and a TB patient.

Mozambique has ten provinces, each with multiple districts. Although TB CARE has a presence
in seven provinces and 36 districts, with plans to expand to 24 more by the end of the program,
CB DOTS activities had barely begun or had not yet begun in many locations. Consequently,
the audit team selected site visit locations with the most CB DOTS activities, based on
discussions with responsible mission officials and our review of the reported data. We then
judgmentally select two provinces and three districts in each for our field visits of provincial and
district health offices and health centers. We made a substitution for one district after we
discovered another program during fieldwork; the substitution allowed us to cover at least one of
the six districts of northern Gaza Province in which World Relief is implementing CB DOTS
under a separate cooperative agreement with USAID/Washington. These visits gave us
coverage of 26 percent of the people tested and 23 percent of the patients who underwent
treatment for TB in Mozambique as of the first quarter of 2011.

Methodology
To answer the audit objective, we first reviewed applicable laws, best practices, and guidelines.
Specifically, we reviewed the Tom Lantos and Henry J. Hyde United States Global Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 (Public Law 110-293);
the Gender Equality and Female Empowerment Policy; as well as USAID’s ADS Chapters (201,
“Planning”; 202, “Achieving”; 203, “Assessing and Learning”; 204, “Environmental Procedures”;
302, “USAID Direct Contracting”; 303, “Grants and Cooperative Agreements to Non-
Governmental Organizations”; and 320, “Branding and Marking.”               Through reviews of
documents obtained from, and preliminary discussions with, the mission, we determined that TB
CARE was the primary TB program at USAID/Mozambique. We determined that TB CARE’s
focus was on CB DOTS, along with capacity building at the related TB laboratories and health
systems strengthening. From the mission’s performance report and the implementing partner’s
quarterly reports, as well as from discussions with mission officials, we determined that the key
indicators to focus on as measurements of the intermediate results of the program’s main
objectives were (1) Number of people trained in CB DOTS with U.S. Government funding,
(2) TB case detection rate, and (3) TB treatment success rate. We also determined that TB/HIV
coinfection control and therapy were significant aspects of the TB program. In testing these
indicators, we traced the data reported in the mission’s performance plan and report to its
sources—the government data reports on TB, FHI quarterly reports to USAID—and compared
our judgmentally selected samples with records kept by FHI subgrantees’ and the government’s
national, provincial, district, and health facilities.

Lastly, we determined that building laboratories’ capacity and strengthening health systems
were also integral parts of the program’s objectives. In this regard, the official we interviewed at


                                                                                                 13
                                                                                       Appendix I


the National Reference Laboratory informed us, and our own observation confirmed, that a new
TB section had been improved structurally with funding from TB CAP. There, and at the Beira
Regional Laboratory, we saw key laboratory equipment furnished by TB CARE. We did not visit
Nampula but were informed by FHI that the rehabilitation of the regional laboratory there, also
funded by TB CARE, was near completion. At most of the health facilities we visited, we found
equipment provided by TB CARE.

Because we did not select a statistical sample of sites or data for testing, we cannot project our
results to all activities. Nonetheless, we believe evidence gathered during fieldwork provided us
sufficient means to answer our audit objective.




                                                                                               14
                                                                                                Appendix II



MANAGEMENT COMMENTS 


                                                                                              25 July 2012
MEMORANDUM

TO:	                 Christine M. Byrne, Regional Inspector General/Pretoria

FROM: 	              Polly Dunford, Acting Mission Director /s/

SUBJECT:	            Audit of USAID/Mozambique’s Tuberculosis Activities (Report No. 4-656-12­
                     XXX-P)

This memorandum transmits USAID/Mozambique’s responses and comments to the Draft
Report of the audit of USAID/Mozambique’s Tuberculosis Activities sent to the Mission on June
25, 2012. USAID/Mozambique appreciates receipt of the draft report and the opportunity to
offer clarifications and our response. We request that our response be included in its entirety in
the final report of the audit.

The overarching goal of USAID/Mozambique’s support to the tuberculosis program in
Mozambique is to increase tuberculosis detection rates, numbers on treatment, and tuberculosis
treatment success rates to reduce tuberculosis morbidity and mortality.                      The
USAID/Mozambique supports the Ministry of Health’s (MOH) National Tuberculosis Strategy to
increase tuberculosis case detection and treatment success rates.                  In addition,
USAID/Mozambique is implementing an ambitious portfolio of TB/HIV activities with PEPFAR
funds, in conjunction with the Centers for Disease Control and Prevention (CDC). The Mission’s
work in TB and TB/HIV provides opportunities for USAID/Mozambique to improve our overall
approach to strengthening tuberculosis prevention and treatment in the country and to establish
better-integrated programs. We appreciate the time and effort that the Regional Inspector
General (RIG) devoted to conduct the audit, as well as the professionalism of the RIG staff. We
value audits and consider them as an opportunity to improve USAID health programming. The
Draft Report for the audit of USAID/Mozambique’s Tuberculosis Activities raises many valid and
important points. USAID/Mozambique would like to clarify and provide context for several
issues outlined in the resultant findings and recommendations.

I. GENERAL COMMENTS AND CLARIFICATIONS:

Target Setting under PEPFAR and TB CARE Process:
Targets for HIV-TB are set annually during the planning process for the PEPFAR Country
Operational Plan (COP). USAID and CDC, the two agencies with clinical activities, collaborate


U.S. Agency for International Development
JAT Complex                                                            U.S.A. Postal Address
Rua 1231, n.º 41                            Tel: (258) 21 35 20 00     2330 Maputo Place
P.O. Box 783                                Fax (258) 21 35 21 00      U.S. Department of State
Maputo, Mozambique                          www.usaid.gov/mz           Washington, D.C. 20521-2330


                                                                                                        15
                                                                                       Appendix II


to set clinical targets in compliance with the Office of the Global AIDS Coordinator.
Methodologies and formulas for setting targets for each indicator are agreed upon by the
interagency clinical and strategic information teams, and, in general, are applied uniformly
across all clinical implementing partners.

As part of the COP process, targets are set for the following HIV-TB indicators by
USAID/Mozambique-funded clinical project, Clinical HIV/AIDS Services Strengthening in
Niassa, implemented by FHI 360 (CHASS-N) and Sofala, Manica, and Tete (CHASS SMT),
implemented by Abt Associates are:
    the number of HIV-positive patients who were screened for TB in an HIV care and
       treatment setting
    the number of HIV-positive patients in HIV care or treatment (pre-ART or ART) who
       started TB treatment
    the number of TB patients who had an HIV test
    the number of HIV-positive TB patients (co-infected) who are known to have started
       ART.

The targets for TB CARE, the Mission’s tuberculosis specific implementing partner project, are
based on the National Tuberculosis Program’s five-year strategic plan (2008 -2012) that aims to
reach the global WHO STOP TB goal of achieving 70% TB case detection and 85% treatment
success rate and the Millennium Development Goals of decreasing the morbidity and mortality
due to TB by 50%. During the COP 2012 target setting exercise, the interagency technical team
was encouraged to put forward ambitious targets in order to reach global PEPFAR goals, with a
focus on “treatment as prevention”. There were numerous debates about how best to balance
the priority to “push the envelope” and set aspirational targets with the limitations of in-country
capacity. In the end, the interagency team reached consensus to set more ambitious targets.

Data and reporting:
Partners report TB-HIV data to USAID semi-annually (April and October), as part of the
PEPFAR reporting schedule. This data is analyzed by the technical staff. TB CARE submits
quarterly reports to USAID (January, April, July, and October).

In November 2011, members of USAID’s Strategic Information team conducted a data
verification and documentation review exercise in Sofala of the number of HIV-positive patients
in HIV care or treatment (pre-ART or ART) who started TB treatment. Data reported by the
partner (CHASS SMT) for this indicator as part of the Annual Program Results (APR) was found
to be largely consistent with the data in the Monthly Summaries from the health facilities.

In May 2013, a joint CDC-USAID data verification exercise is planned to review data reported as
part of the FY2013 Semi-Annual Program Results (SAPR). This exercise will review, among
other indicators, the number of HIV-positive patients who were screened for TB in an HIV care
and treatment setting and the number of HIV-positive patients in HIV care or treatment (pre-ART
or ART) who started TB treatment. A selection of USAID partner sites in Manica and Sofala are
planned for inclusion in the study.

Implementation of TB and TB/HIV interventions:
The Mission supports the National Tuberculosis Program (NTP) through TB Care I,
implemented by Family Health International 360. TB CARE’s scope includes providing technical
assistance and support at the central level and activities aim to strengthen institutions and
programs related to TB control, by improving accessibility and quality of TB prevention,


                                                                                                16
                                                                                      Appendix II


diagnosis and treatment, including multi-drug resistant TB (MDR TB); improving community
involvement in TB control, and enhancing effective linkages across the continuum of care from
home to hospital. These interventions all contribute to the national, global and Millennium
Development Goals (MDGs) targets for TB.

In addition, TB CARE provides technical assistance to the NTP Task Force and Technical
Advisory Group. The Task Force and the Technical Advisory Group were created to improve
coordination, avoid duplication and increase synergies in TB programming. TB CARE also
participates as a technical advisor in the technical sub-group on infrastructure issues related to
TB headed by the Infrastructure Department at the MOH.

Simultaneously under PEPFAR, the Mission provides technical assistance at the health facility
level in the provinces of Sofala, Manica, Tete and Niassa to strengthening of TB/HIV
interventions through Abt Associates and Family Health International 360 (FHI 360). This
includes supporting core TB/HIV activities in provider initiated counseling and testing (PICT) for
TB patients at TB service, Cotrimoxazol Preventive therapy (CPT) to TB/HIV co-infected
patients and referrals to HIV care & treatment as well as strengthening the 3 I’s: Intensive Case
finding (ICF) Isoniazid Preventive Therapy (IPT) and Tuberculosis Infection control (TB- IC).

Work plan delays:
The Mission agrees that approving work plans in a timely fashion is critical to implementing
effective activities. USAID/Mozambique will ensure that in the development of the next work
plan that all parties involved abide to the timeline approved. This will be accomplished by
streamlining the process and including all parties from the beginning, simultaneously being
reviewed by the USAID headquarters, the Mission and the National Tuberculosis Program to
avoid delays.

Gender:
New data collection tools were revised in 2010 to include information disaggregated by sex, age
and patient’s referral point. It was piloted in the provinces of Maputo and Tete in September
2011. The NTP is scheduling to begin training on the new tools in September or early October
2012.

In addition, from July 23-24, 2012, the NTP convened a meeting of stakeholders - USAID, CDC,
WHO and TBCARE I - to discuss surveillance issues, including the importance of strengthening
data analysis as it relates to gender. Moreover, from September 3-6, 2012, the NTP will launch
the national TB five-year strategic plan (2013-2017) where provincial TB supervisors will be
oriented on the new data collection process for analyzing data by gender.

II. USAID/MOZAMBIQUE RESPONSE TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Mozambique develop and implement a
strategy addressing lower rates of HIV testing among urban Tuberculosis patients in order to
improve HIV testing rates in Sofala and Manica provinces.

The Mission concurs with the findings on the low HIV testing in those provinces and appreciates
the stratified analysis conducted by the RIG by rural and urban settings. The target setting of
90% of TB patients tested for HIV was due to the fact WHO recommended that 100% of TB
patients be tested for HIV and vice-versa in order to provide quality care of services for the co­
infected patients. In 2011 the country achieved coverage of 80% of TB patients tested for HIV.


                                                                                               17
                                                                                         Appendix II


After this audit, the Mission held a technical meeting with TBCARE I, CHASS-SMT and CHASS
Niassa to discuss the concerns about missed opportunities for HIV testing among TB patients.
Reasons behind the low rates in urban settings include the higher demand for services in urban
settings and insufficient human resources to meet the need and provide the necessary
counseling and testing. This in turn may lead to low acceptance of HIV testing. In addition,
there are irregularities in the availability and management of HIV test kits in TB settings.

Taking in consideration these findings, CHASS-SMT, with technical support from TB CARE and
in coordination with Ministry of Health authorities in Sofala and Manica, will conduct a rapid
situational and indicator analysis in the end of August 2012 to discover which urban health
facilities have the potential to increase HIV testing among TB patients. Upon identification,
CHASS-SMT will prioritize these facilities, identify the constraints, and develop tailored
implementation plans for each facility to improve HIV testing. It is anticipated that some key
activities to resolve the problem could include improved staff training, establishment of one shop
stop model, minor renovations, decentralization of counseling and testing, improved advocacy,
communication and social mobilization activities in these settings. All implementation plans will
include a monitoring and evaluation plan.

In addition, USAID/Mozambique will specifically review the data from the approximately 25
primary urban health facilities in Sofala, Manica, and Tete provinces after each reporting period
after the next Annual Portfolio Review (October/November 2012). This will enable close
monitoring and serve as an evidence base from which plans to increase HIV testing can be
adjusted as necessary.

With respect to the availability of HIV test kits, CHASS-SMT is launching in Sofala province a
new implementation strategy on quality assessment/quality improvement (QA/QI) to improve the
control of commodity stocks through the use of a mobile technology. This activity started this
month and will be monitored on a monthly basis. TB CARE in coordination with Management
Science for Health, will establish an early warning system for HIV reagents and test kits adapted
from a system recently developed for TB drugs to reduce and prevent frequent occurrences of
stock out and/or expired HIV test kits for TB patients. Moreover, the TB/HIV Task Force will
follow and discuss with logistic staff on existing stocks of HIV reagents, and every supervision
team will monitor the process during field visits on a quarterly basis starting in August 2012.

Additional activities to capitalize on the above mentioned interventions include:

   	 Recruit two TB CARE technical provincial officers to be based in Tete and Sofala
      (Manica will receive support from the Sofala officer) to provide supervision, on the job
      training of local staff, support to improve patient flow within the health facilities to ensure
      that testing opportunities and ARV treatment of co-infected patients are not lost. The
      process of recruitment will start in October 2012, after the approval of Annual Plan of
      Action, year 3 (APA3). The technical provincial officers will also address the issues of
      patients being referred to VCT clinics instead of being tested and register in the TB
      sector.

   	 Conduct a three-day refresher training for CHASS-SMT, CHASS-N, and TB CARE
      provincial technical officers (including technical coordinators from CB DOTS
      implementing agencies) on MDR TB and TB/HIV collaborative activities. This training is
      planned to take place in September of this year and will also include capacity building for
      the use of M&E tools and analysis of data.


                                                                                                  18
                                                                                       Appendix II


   	 Joint monthly supervision visits will be conducted start in October 2012 at the provincial
      level, including with participation of USAID/ Mozambique TB technical advisor, TB CARE
      staff, CHASS-SMT, CHASS-N officers, and NTP representatives at central level.

   	 Production, distribution and dissemination pamphlets on TB/HIV issues in all 11
      provinces is planned to be done in august of current year.

Recommendation No. 2: We recommend that USAID/Mozambique propose realistic targets,
based on World Health Organization data, for the percentage of HIV-positive tuberculosis
patients initiating anti-retroviral therapy during the next interagency planning process in
Mozambique.

USAID/Mozambique concurs with this finding. Mission acknowledges that the target for TB
patients initiating ART was ambitious. The basis for the target of 80% of co-infected TB/HIV
patients being treated with ART was Mozambique’s adoption of the WHO guidelines for
universal ART for HIV/TB patients, as well as the recent prioritization by the Office of the Global
AIDS Coordinator (OGAC) to help achieve an AIDS Free Generation. However, USAID agrees
that drug logistic issues, past performance, and WHO data should have been taken into
consideration when developing the FY 2012 targets. Therefore, the interagency team went
back to OGAC and revised its targets from 80% to 70%. New approaches are expected to
improve the provision and uptake of TB and HIV services such as mobile units and the scaling
up of the one stop model. The MOH’s new guidelines for task shifting ARV prescribing to
nurses will also inform future target setting. These new approached will be taken into account
as part of the evidence base used for the FY 2013 interagency COP target setting exercise.

The Mission has started the discussion with the MOH and other partners to follow-up the
evolution of new co-infected TB/HIV enrolled on ARV and establish a more realistic and
achievable targets and during the FY 2013 COP. Based on the experience and the results
achieved in FY 2012, it has been agreed that the next process of target setting will incorporate a
more grounded exercise and include the numerous variables that better depict what can be
achieved during the given timeframe, including World Health Organization data, and information
from neighboring countries in the region that have similar conditions to Mozambique. We
believe that no further action is currently required.       We therefore request that this
recommendation be closed.

Recommendation No. 3: We recommend that USAID/Mozambique, in collaboration with
Family Health International and the Government of the Republic of Mozambique, develop and
implement a plan to help optimize use of Tuberculosis microscopy, including training and
placement of technicians in Tuberculosis microscopy and procedures to track, repair, and
replace defective microscopes.

The Mission acknowledges and agrees with the findings regarding the need to optimize the use
of microscopy for tuberculosis. In September of 2012, TBCARE I will translate a manual called,
“Guidelines and specifications for managing TB laboratory equipment and supplies” developed
by TBCAP-USAID. This manual will be used to train laboratory technical staff as well as NTP
staff to develop a system for efficient and timely procurement of quality laboratory equipment
and supplies, and the ongoing management of all TB-related laboratory commodities. The
expected result of this training will lead to improved knowledge on the components of the
commodity management cycle, which includes the phases of selection, procurement (including
quantification, forecasting, and the process of projecting future needs over a longer period of
time), distribution (the process of transporting, delivering and receiving laboratory supplies;

                                                                                                19
                                                                                       Appendix II


appropriate storage; inventory control; and information systems for receipt and disbursement),
use (the safe and effective use of TB laboratory diagnostic services and commodities includes
performing tests effectively and efficiently, and technical aspects of testing) and management
support and preparedness (essential to all the functions listed above and proper quantification is
vital to ensuring that adequate stock levels of TB laboratory commodities are always available).

Moreover, FHI 360 will complete by end of FY 2012 a baseline assessment on the microscopy
network in the seven target provinces in order to strengthen the capacity and increase the
accessibility of quality assured TB smear microscopy network by the end of this year.

In order to improve the efficient use of microscopes the TB CARE team has identified the
following key activities to be included in APA3:

   	 In September of this year, assess the microscopy that needs to be replaced or repaired
      as well as purchasing spare parts and other laboratory consumables will be performed.
      New microscopes will be procured and/or refurbished where needed;

   	 Train technicians at the provincial level in maintenance of microscopes, TB microscopy,
      including quality assurance and laboratory management by December 2012;

   	 Provide personalized technical assistance to the laboratories based on their needs will
      be started in January of the next year.

Other activities that will expand the coverage of quality assured microscopy network include:

   	 Introduction of External Quality Assurance (blind rechecking) by October 2012;

   	 Procurement of Light-emitting diode (LED) microscopy by September 2012;

   	 Conduct refresher courses and follow-up of nurses trained in AFB slide fixation by
      December 2012.

Specifically concerning Buzi district, a TB CARE officer is currently supervising the district with
the TB Provincial Supervisor. The concerns raised during the audit visit of Tunga health post in
Buzi will be addressed by the Provincial Health Department (DPS), which plans to allocate a lab
technician to be based at that lab facility. In the meantime the implementing partner, sub-
grantee “Ajuda de Desenvolvimento de Povo para o Povo” (ADPP) will provide support to that
facility to train a nurse on fixing specimens to make permanent slides (slide’s fixation) and
facilitate its transportation by September 2012.

Recommendation No. 4: We recommend that USAID/Mozambique work with the Bureau of
Global Health to develop and implement procedures for activity managers to follow regarding
their monitoring of Child Survival and Health Grant Program projects in Mozambique.

USAID/Mozambique concurs with this finding. The Mission is in communication with the Global
Health Bureau’s Child Survival and Health Grant Program AOR about establishing standard
operation procedures, which will include that the Mission Activity Manager participate in
workplan reviews, regular meetings, field visits and provide technical comments to the quarter
and final project’s implementation reports. No further action is currently required. We therefore
request that this recommendation be closed.


                                                                                                20
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
